[J

No .-VJ

n

IBM
IN THE

SUPREME COURT OF THE UNITED STATES

& *?/■ ^Urn a Aj m 1
ANTWONE LAMONT CREATER - PETITIONER
VS.
THE PEOPLE OF THE STATE OF ILLINOIS - RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO
THE ILLINOIS SUPREME COURT
PETITION FOR WRIT OF CERTIORARI

FILED
ANTWONE LAMONT CREATER

R32499

251 North Illinois Highway 37
Ina,Illinois 62846

JAN 1 3 2021
SUPREM^COURT.S^^

QUESTION(S) PRESENTED

This case presents an excellent vehicle for this Court to resolve
a growing conflict in the Illinois Appellate Courts: Whether the
seriousness of the offense is the most important factor for a judge
to consider in fashioning a defendant's sentence,or whether the
seriousness of the offense must be weighed equally with the defendant's
history,charecter,rehabilitative potential,and other mitigating and
aggravating factors.

[1]

LIST OF PARTIES

All parties appear in the caption of the case on the cover page.

[2]

TABLE OF CONTENTS
.... '5

OPINIONS BELOW....
JURISDICTION

6

CONSTITUTIONAL AND STATUYORY PROVISIONS INVOLVED

7

STATEMENT OF THE CASE

8

REASONS FOR GRANTING THE WRIT

15

CONCLUSION

19

INDEX TO APPENDICES

APPENDIX A

Illinois appellate' court decision denying petitioner' s
appeal.'-•

appendix b

Petition for leave to appeal denied by the Illinois
Supreme Court without a hearing.

[3]

TABLE OF AUTHORITIES CITED

PAGE NUMBER

CASES
People
People
People
People
People
People
People
People
People
People
People
People
People
People
Peolpe
People
People
People

v.
v.
v.
v.
v.
v.
v.
v.
V.
V.

v.
v.
v.
v.
v.
v.
v.
v.

Adamcyk 259 ILL App.3d 670,681 (2d Dist.1994)
Busse 2016 IL App(lst) 142941
Clemons 2012 IL 107821
Creater 2020 IL App (4th) 180126-U
Dalton 2018 IL App (4th)160026
Foxx 2018 IL App (lst)162345
Hale 2012 IL App (4th) 100949
Hernandez 319 Ill.App.3d 520 (3d Dist.2001)
Hestad 362 Ill.App.3d 272,281 (2005)
Jackson 2014 IL'App (1st) 13258
Krankel (no citation given)
Lawson 2018 IL App (4th) 170105
Murray 2020 IL App (3d) 180759
Sharpe 216 ILL 481,519-20
Tye 323 ILL App 3d 872,890 (1st Dist.2001)
Watt 2013 ILL App (2d) 120183
Weiser 2013 IL App (5th) 120055
Wheeler 2019 II App (4th) 160937

STATUTES AND RULES
720 ILCS 570/411 (1) (West 2016)
720 ILCS 570/100 (West 2016)

(17)
(18)
(17),(18)
(8-19)
(16)
(18)
(17),(18)
(15),(18)
(14),(15),(16)
(17)
(12)
(17)
(17)
(18)
(17)
(15)
(17)
(15,(16),(18)

(13)

(14)

OTHER
CONSTITUTION OF ILLINOIS 1970 Article I§11

[4]

(17)

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to
review the judgement below.

OPINIONS BELOW

The opinion of the highest state court to review the merits appears
at Appendix B to the petition and is unpublished.

The opinion of the Illinois Appellate Court for the Fourth District
appears at Appendix A to the petition and is unreported but available
at 2020 ILL App (4th) 180126-U.

[5]

JURISDICTION

The date on which the highest state court decided my case was
November 18th,2020.
A copy of that decision appears at Appendix B
The jurisdiction of this Court is invoked under 28 U.S.C.§1257(a).

[6]

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

United States Constitutional Amendment XIV "equal protection under
the laws"
The Illinois Constitution of 1970 Article I§11."A11 penalties shall
be determined both according to the seriousness of the offense and
with the objective of restoring the offender to useful citizenship"

[7]

STATEMENT OF THE CASE

In January 2018,Antwone Creater was sentenced by the Honorable
Scott Drazewski to fifteen years in prison for delivery of a controlled
substance,less than one gram of heroin,a class 2 felony.People v.
Creater,2020 IL App (4th) 180126-Ufl 2;(.C.124) He filed a timely
motion to reconsider sentence,which‘the trial,court denied,and he
appealed his sentence as excessive.Creater,2020 IL App (4th) 180126-U,
Tl 2. The appellate court affirmed his sentence in September 2020. Id.
H 3.
Background
Antwone Creater and Dorian Parker were arrested in Normal,
Illinois,by Bloomington Police Department officers,as part of a
buy-bust reverse sting operation.Creater,2020 IL App (4th) 180126-U,
flfl 9-10;(Sup.R. 114-15,120-21) An officer nearby had observed Parker
deliver a small amount of heroin to Kasey Wheeler at a bus stop several
minutes earlier. (Sup.R.72^726) Afterward,Creater met up with Parker
at the bus stop and they walked down the street.(Sup R.95-97) A few
minutes later they were arrested.(Sup R.79,83) Parker and Creater
were both charged for delivering heroin to Wheeler, a confidential
source who was terminated as a result of dishonesty in carrying out
the exchange■(Sup R.57-59,136);(C.21) The police recovered 0.1 grams
of heroin from Wheeler after the exchange.(Sup R. 135,141)
While in jail,facing two non-probational delivery counts,Parker
signed a sworn affidavit taking full responsibility for the heroin
sale,and exonerating Creater from having any part in the sale.Creater,
2020 IL App (4th) 180126-Ufl 8. After reaching an agreement with the
State's Attorney's Office,he testified at Creater7s trial that Creater
,, ^Ms.Wheeler's first name has various spelling? throughout the record of.proceedings .
Kasey appears to be the most common spelling in the record.(Def.Op.Br.2)

[8]

directed him to deliver heroin to Wheeler.(Sup R.45-49,57-59),In
exchange for his testimony in the State's case in chief,the State
would amend a probationable charge in Parker's case,and accept a
guilty plea on that count.Creater,2020 IL App (4th) 180126-U,fl 7.)
Trial
In December 2017,Creater was tried by a McLean County jury on
one count of delivery of a controlled substance,in violation of
720 ILCS 570/401(d)(i) (West 2016).Creater 2020 IL App (4th) 180126-U
flU 5-6.Wheeler and Parker were the State's first witnesses.Id.flfl 6-7.
Wheeler testified she was working as a confidential source for the
Bloomington Police Department.Id.fl6. She said she had never worked
as a confidential source before,and was working with Bloomington
Police Detective Todd Walcott.(Sup P.21) She said she decided‘~to

7

become a confidential source because she was addicted to heroin,and
if Creater were off the streets it would make it harder to get the
drug. Creater, 2020 IL App (4th) 180.126-U fl6. Detective Walcott later
testified Wheeler was referred to him by a Bloomington Police Depart­
ment colleague,who told Walcott that Wheeler wanted to work as a
confidential source,for leniency on unrelated felony charges.Id.fl6;
(Sup R.127) Walcott said he previously worked with Wheeler on a bust
operation that failed,and that it appeared from her source number
that she first worked as a confidential source years earlier.(Sup R
112.126-28) Wheeler conceded that,despite her cash payments,she was
hoping for leniency as well.Id.fl6.
The State introduced images of a text-message conversation between
Wheeler and Creater in which she asked him to bring her a prescription
methadone bottle she had lost,and Creater expressed concern that she
was setting him up.(Sup R.32-34)Peo.Exh.Nos.2-1,2-2,2-3. The text

[9]

messages Wheeler provided did not indicate any plans for a drug deal.
See Id. She said Creater did return the prescription methadone she
had lost,which Parker said he passed on to her for Creater.(Sup R.
32-34,49).
Parker testified he and his wife came to Bloomington from Harvey,
Illinois,to visit Creater,his wife's cousin,over the Labor Day weekend.
Crfeater,2020IL App (4th)180126-U,U 7.Parker claimed he met up with
Creater,who he said instructed him to deliver an empty methadone bottle
and two heroin packets to Wheeler at a bus stop.Id.While Parker
admitted signing an affidavit in the McLean County Jail completely
exonerating Creater,he claimed to have no knowledge of the contents
of the af f idavit, the body of which was not in his handwriting. Id. II 8.
He said he signed it because he "felt pressured" by Creater and his
brother,and because he was going through drug withdrawls.Id.
Parker said Creater promised to provide him a bag of heroin for
agreeing to the delivery. Id. 11 7. He said that Wheeler gave him $140
at the bus stop,and he gave her two bags of heroin.Id. Parker said
Creater came by the bus stop,and they walked away together.Id.He
said that thirty seconds later,police stopped him and Creater as they
walked away from the bus stop.Id.When they were arrested,Parker still
had the recorded currency from the drug transaction in his pocket.Id.
Creater had over $1700 on him,as well as the cell phone Wheeler had
been calling and texting when she said she was setting up a deal with
Creater. Id. 11 9 .
Sgt.Jeff Albie,of the Bloomington Police Department,watched the
hand-to-hand transaction between Wheeler and Parker.Id.;(Sup R.7276) His log reflected that five minutes passed from when Creater and
Parker left the bus stop and to when they were arrested.(Sup R.83")

[10]

Detective Walcott explained for the jury how a controlled buy
works,and the methods for ensuring the integrity of the investigation.
Creater,2020 IL App (4th) 180126-U fl!0;(Sup R.109-11) He described
entering into a confidential source agreement with Wheeler in 2017,
after a collegue,Sgt.Bioletto,referred her to him so she could work
off her felony charges. Creater, 2020 IL App (4th) 180126-U 1110 (Sup R.
30,126-28) He said she ultimately chose cash payment over leniency
for her charges,which were mutually exclusive options.(Sup R.128)
She was to receive $140 for her participation.(Sup R. 130)
Detective Walcott said he met Wheeler at a library,and drove
herr.around to various locations to which she said Greater was directing
her.Creater,20201IL App (4th)180126-U U10;(Sup R.116)He listened to
her side of the calls with Creater.(Sup R. 117) He said it was app­
arent the conversation concerned "heroin" or "drugs in general."(Sup R.
117)He gave her $160 to make the buy and dropped her off in the area
near the bus stop.(Sup R.121-22) When he met up with her forty-five
minutes later,he searched her and found one bag of heroin,which was
later measured to weigh 0.1 grams.Creater,2020 IL App (4th) 180126-U
fl 10;(Sup R.121,135,141) She also had the methadone bottle referenced
in her texts with Creater. (Sup R.-135) He later learned she kept the
$20 difference between the cost of the drug deal and what Walcott
gave her.(Sup R.135) He said he no longer worked with her because
she compromised the investigation.(Sup R.136)
Before the State rested,the parties stipulated that the substance
recovered from Wheeler was 0.1 grams of heroin-containing substance.
Creater,2020 IL App (4th)180126-U fllO.The defense did not put on
evidence.Id.
After the jury returned a guilty verdict,defense counsel filed

[11]

a post-trial motion for'a new trial or judgement notwithstanding the
verdict,2020 IL App (4th)180126-U flll;(C.117) Creater also filed a
pro se motion alleging ineffectiveness of counsel,(C,115);(R,146-57)
The trial court inquired into Creaters claims of ineffectiveness
before ruling on the motion for new trial. Finding counsel was not
inef f ective , the court did not hold a Krankel hearing . (R. 157 ) The
court denied the motion for a new trial,noting that while there was
evidence Creater was not"instrumental" in the drug delivery,the verdict
was supported by evidence such as the "substantial amount of money"
recovered from him when he was walking away from the bus stop. ^(R,
160-61) Acknowledging one of Parker's sworn statements had to be
untrue,the court also found counsel had effectively cross-examined
the witnesses for bias and motive to lie.(R.161)
Sentencing
In mitigation,defense counsel produced evidence Creater had been
accepted to Midwest Technical Institute for vocational study,and that
he had earned his money from legitimate employement,rather than
dealing drugs .(R.166) ;(Sup E.19-26) Creater called a mitigation
witness who said Creater served as a father figure to her,and that
she would help him reintegrate when released from prison,as she had
previously.(Rl67-70) In allocution,Creater discussed his past criminal
convictions,saying he had plead guilty in the past to offenses he
had actually committed,but that hewent to trial this time because
he did not committ this offense.(R.181-83) In aggravation,the State
pointed to Creater's prior drug offenses,including delivery of a
controlled substance,and noted he violated probation and parole each
time he had been on either since 2001,including the arrest in this
case,(R.171-73) The State argued his sentence should be enhanced

[12]

because heroin is "a highly toxic controlled substance," which is
a statutory factor "a court may consider" under the Controlled
Substances Act .Creater , 2020 IL App (4th) 180126-U IT 12, (citing
720 ILCS 570/411(1) (West 2016) Delivery of less than one gram of
heroin is a Class 2 felony,but because of his prior convictions,
Creater was mandatorily subject to a Class X sentence in this case.
CR.186-87) ;see 730 ILCS ,5/5-4.5-95(b) (West 2016).
The State recommended a sentence of twenty years.(R.173) Defense
counsel recommended ten years.(R.180) The trial court assured Creater
his sentence would not be increased as punishment for going to trial.
(R.187) Noting the appellate court's concern about trial courts imposing
illegal sentences based on double enhancements,the trial court said
it "never will again go through factors in aggravation and mitigation
and make specific findings because of the potential for the Appellate
Court finding that there would be a double enhancement that has been
imposed."(R.187) The court then sentenced Creater to fifteen years
in prison.(R.188) Counsel filed a written motion to reconsider
sentence,arguing Creater's sentence was excessive.C.130) After
arguement,the court denied the motion.(R,195,198)
Appeal
Creater appealed his sentence.Creater,2020 IL App 180126-U.
In the appellate court,he argued the trial court abused its discretion,
because"[t]he seriousness of the offense,being the most important
sentencing factor," could not justify sentencing him to fifteen years
in prison.(Def.Op.Br.12,14) He argued that the sentence was not
commensurate to the seriuosness of the offense,because the amount
of the substance was very small,pointing in part to the legislature's

[13]

express intent for severe sentences to be reserved for large scale
drug traffickers,and not imposed on "the unlawful user or occasional
petty distributor!] . ]" (Def .Op .Br . 16-17) (quoting 720 ILCS 570/100
(West 2016).
The appellate court affirmed,stating it would not give "a lack
of seriousness ... more weight than any other factors" considered at
sentencing.Creater,2020 IL App (4th) 180126-U,fl 27. The court stated
instead that "the seriousness of the offense...must be equally weighed i n
with other sentencing factors such as deterrence,incapacitation,
punishment, and the defendant's individual characteristics . Id . T! 25
(quoting People v.Hestad,362 Ill.App.3d 272,281(2005))

[14]

REASONS FOR GRANTING THE PETITION

This case presents an excellent vehicle for this Court to
resolve a growing conflict in the Illinois Appellate Courtsrwhether
the seriousness of the offense is the most important factor a judge
to consider in fashioning a defendant's sentence,or whether the
seriousness of the offense must be weighed equally with a defendant's
history,charecter,rehabilitative potential,and other mitigating and
Jaggravating factors. ComparePeople v. Wheeler,2019 IL App (4th)
160937,1! 38 (holding the seriousness of the offense is the most
important factor); People v. Watt,2013 IL App(2d) 120183,11 50(same)
with People v. Hestand,362 Ill.App.3d 272,281(4th Dist.2005)(holding
factors"must be equally weighed" with the "seriousness of the
offense"); People v. Hernandez,319 Ill.App.3d 520 (3d Dist.2001)^
(same).
In this case,Antwone Creater was sentenced to fifteen years
in prison for delivery of 0.1 grams of herion on a theory of acc­
ountability .People v. Creater,2020 IL App (4th) 180126-U,HH 10,24.
Noting the Illinois legislature's express intent in the Controlled
Substances Act to reserve severe penalties for large-scale drug
traffickers,rather than drug addicted people involved in petty
drug deals,Creater argued that the Illinois Appellate Court should
reduce his sentence.Affirming Creater's sentence,the Illinois
Appellate Court for the Fourth District flatly rejected the notion
that the seriousness of the offense is the most important sentencing
factor,finding seriousness of the offense should be considered
under the equal-weight standard. Id. 1126.
This case provides the right backdrop to resolve the conflict

[15]

between those cases holding the seriousness of ahe offense is
the most important factor,and those holding an offense's seriousness
should be weighed equally with other concerns-The court expressly
refused to consider what it described as "a lack of seriousness"
as the most important factor,and was clear that its decision rested
in significant part on its decision to apply the equal-weight
standard. Id. The Illinois Supreme Court declined to review this
case which clearly illustrates a split in autority illustrated by
Creater.
In affirming Antwone Creater's fifteen-year prison sentence
for delivery of less than one gram of heroin on a theory of account­
ability, the Illinois Appellate Court expressly rejected the principle
that the seriousness of the offense is the most important sentencing
factor.People v. Creater,2020 IL App (4th) 180126-U fl26-To reach
this conclusion,the court chose to rely on a line of cases holding
seriousness of the offense is "equally weighed" with all other
sentencing factors. Id.fl25(quoting People v. Hestand,362 Ill.App.
3d 272,281(4th Dist.2005)).
But as the same court has acknowledged,the line of cases relied
on by the appellate court in this case directly conflict with its
own decisions affirming that the seriousness of the offense is the
most important sentencing factor. In an unreported 2018 case,The
Fourth District quietly noted this split between Illinois Courts,
and observed that the Illinois Supreme Court"has yet to address the
issue" of these two conflicting lines of cases-People v. Dalton,
2018 IL App (4th) 160026-LHI27.2
irThe unpublished order in:Dalton -is -quoted -here ‘.solelyA to .Illustratean acknowledged split of authority in the Appellate court,and not for substantive
purposes..See-Il-1>S.Gt-.R;23(e).The disjunctivd authority at issue in this’qase,and
alluded to by the court's comment in the Dalton case,is discussed below.

[16]

Here,the appellate court appeared to accept that Antwone Creater'd
offense was not serious,and that application of the equal-weight
standard resulted in a different outcome than had the court weighed
the "lack of seriousness" most heavily.Creater,2020 IL App (4th)
180126-U1MI 25-26.
The Illinois Constitution,by design,gives special weight to
the "seriousness of the offense."People v. Clemons,2012 IL 107821
flfl 29, 38. Other than rehabilitation,no other sentencing factor
enjoys this constitutional pedigree.See Clemons, 2012 ILv 107 8 21 , 29
accord Ill.Const.(1970) ,art.I§ll ("All penalties shall be determ­
ined both according to the seriousness of the offense and with the
objective of restoring the offender to useful citizenship.") Far
from empty rhetoric,the proportionate penalties clause "provides
a check on the judiciary" when a judge hands down an excessive
sentence.Clemons,2012 IL A

107821,29.

One line of precedent gives life to this constitutional mandate.
See People v. Murray,2020 IL App (3d) 180759,!! 30£quoting People
v. Jackson,2014 XL App (1st) 13258,1153) ("the seriousness of the
offense is considered the most important factor in determining a
sentence . ")People v .Wheeler , 2019 IL App ( 4th) 160937,1T 3 8 ( same ) ;
People v. Weiser,2013 IL App (5th) 120055, TI 32(same) ;People v.
Tye,323 Ill.App.3d 872,890(lst Dist.2001)(citing People- v. Adamcyk,
259 Ill.App 3d 670,681(2d Dist.1994))(same).The other line,applied
in this case,directly conflicts with this case law,and,in turn,
departs from the intent and plain meaning of the Illinois Const­
itution .See People v. Lawson,2018 IL App (4th) 170105,11 33 (quoting
Hestand,362 Ill.App.3d at 281)(stating that"the seriousness of the
offense"and other factors"must be weighed equally");People v.Hale

[17]

2012 IL App (4th)100949,fl34(same);People v. Hernandez,319 Ill.App.
3d 520( 3d Dist. 2001)( same); See also Clemons,2012 IL 107821, IT 2 9 ("The
best guide to interpreting" the proportionate penalties clause is
its"own plain language.M)
Antwone Creater 'found himself in the unlucky class of defendants
for whom the appellate court applies the "equal weight"standard.Had
he been in someone else's shoes,the same district of the same court
may have reviewed the same fifteen-year prison sentence by weighing
most heavily the seriousness of his convictionrdelivery of 0.1
grams of heroin on a theory of accountability.See Wheeler,2019 IL App
(4th)160937,1138 (quoting People v. Foxx,2018 IL App (1st) 162345,
1150) (holding statutory mitigating and aggravating factors are not
as important as "the seriousness of the offense")See also People
v.Busse,2016 IL App (1st) 142941,1H128-29(reducing defendant's twelve
year sentence for burglary as "grossly disproportionate" to the
"most important factor to consider,"the "seriousness of the offense");
contra Creater,2020 IL App (4th) 180126-U 1H1 25-26(discussing the
impact of weighing the "lack of seriousness" of Creater'is offense
equally with other sentencing factors).
To create two different classes of defendants,by subjecting
them,seemingly at random,to two different legal standards,is anti­
thetical to the most basic notions of fairness without which our
justice system cannot function.Consistant application of the same
rule.^of law to all litigants, regardless of who they may be, "enables
both the people and the bar of[the'State of Illinois]"to rely on
the precedents set out by our courts.People v. Sharpe,216 111.481,
519-20(2005)(citations omitted).

[18]

CONCLUSION

Since the Illinois Supreme Court has refused to take up this issue,
the petition for writ of certiorari should be granted.

Respectfully submitted,

jtndL

Antwone Lamont Creater
Date:

[19]

